  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




REVIEW OF DOUGLAS CONSULTING AND
 COMPUTER SERVICES, INC., CLAIMED
  COSTS FOR CALENDAR YEARS 2008
          THROUGH 2011


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Stephen Virbitsky
                                                 Regional Inspector General

                                                        December 2013
                                                        A-03-12-03302
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Douglas Consulting & Computer Services, Inc., claimed unallowable costs of
  approximately $316,000 from January 1, 2008, through May 20, 2011.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program. All
Medicare applicants must complete the Initial Eligibility Questionnaire (questionnaire), which
provides the information that CMS uses to determine Medicare eligibility. Douglas Consulting
& Computer Services, Inc. (Douglas), collected and processed the questionnaires under a
subcontract with Group Health Incorporated. CMS requested that we perform an audit of the
costs claimed by Douglas from January 1, 2008, through May 20, 2011.

Our objective was to determine whether costs claimed by Douglas were accurate, allowable and
reasonable in accordance with the terms of the contract and Federal regulations.

BACKGROUND

The Medicare program provides health insurance for Americans aged 65 and over and those who
are disabled or have permanent kidney disease. However, the Social Security Act requires that:
“[b]efore an individual applies for benefits under part A or enrolls under part B, the
Administrator [CMS] shall mail the individual a questionnaire to obtain information on whether
the individual is covered under a primary plan and the nature of the coverage provided under the
plan, including the name, address, and identifying number of the plan.”

CMS contracts with Group Health for the questionnaire process as part of its Coordination of
Benefits contract. Douglas processed the questionnaires as a subcontractor for Group Health
under contract GHI-DCCS-500-00-0001/COB (the contract). During 2011, CMS moved the
paper questionnaire process to an electronic format, and on May 20, 2011, Group Health
terminated the contract with Douglas.

From January 1, 2008, through May 20, 2011, Douglas claimed costs of $11,512,458 under the
contract. We did not audit termination costs incurred after May 20, 2011.

WHAT WE FOUND

Douglas generally claimed costs under the contract that that were accurate, allowable and
reasonable. Of the $11,512,458 in costs that we reviewed, $11,196,818 was allowable under the
terms of the contract and Federal regulations. The remaining $315,640 was unallowable.
Douglas claimed these unallowable costs because it did not have adequate internal controls in
place to ensure that only allowable costs were charged to the contract.




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                    i
WHAT WE RECOMMEND

We recommend that Douglas:

    •   refund $315,640 to the Federal Government and

    •   follow its policies and procedures to comply with Federal regulations.

DOUGLAS CONSULTING & COMPUTER SERVICES, INC., COMMENTS AND OUR
RESPONSE

In written comments on our draft report, Douglas partially concurred with our findings and listed
corrective action it plans to take to address $48,454 of unsupported costs. Douglas did not
concur that costs of $267,186 for fringe benefits and employee morale and welfare were
unallowable. Douglas described its unwritten policy for providing fringe benefits to employees
hired as full time regardless of their hours worked and said that its costs for a television and
group meals were reasonable and necessary for employee morale. Douglas stated that, because
the majority of the costs claimed were allowable, its internal controls were adequate.

After reviewing Douglas’ comments, we maintain that our findings and recommendations are
valid. The unwritten policy that Douglas described did not conform to the written policies and
carried a high risk of indirect discrimination. Employee morale and welfare costs must be
reasonable; that is, ordinary and necessary for the contractor’s performance. However, Douglas
claimed, among other things, $10,946 for one television and $1,868 for Thanksgiving meals.
These costs were neither reasonable nor necessary. We have modified our report to more clearly
reflect the disallowed costs in our findings. Douglas’ internal controls were inadequate to
prevent some unallowable costs from being claimed.




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...............................................................................................................1

           Why We Did This Review .......................................................................................1

           Objective ..................................................................................................................1

           Background ..............................................................................................................1

           How We Conducted This Review............................................................................1


FINDINGS ...........................................................................................................................2

           Unallowable Costs Claimed.....................................................................................2
                 Unallowable Fringe Benefit Costs ...............................................................2
                 Unsupported Automobile and Telephone Costs ..........................................3
                 Unallowable Employee Morale and Welfare Costs .....................................4

           Inadequate Internal Controls ....................................................................................4

RECOMMENDATIONS .....................................................................................................4

DOUGLAS CONSULTING & COMPUTER SERVICES, INC., COMMENTS .............4

OFFICE OF INSPECTOR GENERAL RESPONSE .........................................................5

APPENDIXES

           A: Audit Scope and Methodology ..........................................................................6

           B: Schedule of Costs Claimed ................................................................................7

           C: Douglas Consulting & Computer Services, Inc., Comments .............................8




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                                                              iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program. All
Medicare applicants must complete the Initial Eligibility Questionnaire (questionnaire), which
provides the information that CMS uses to determine Medicare eligibility. Douglas Consulting
& Computer Services, Inc. (Douglas), collected and processed the questionnaires under a
subcontract with Group Health Incorporated. CMS requested that we perform an audit of the
costs claimed by Douglas from January 1, 2008, through May 20, 2011.

OBJECTIVE

Our objective was to determine whether costs claimed by Douglas were accurate, allowable and
reasonable in accordance with the terms of the contract and Federal regulations.

BACKGROUND

The Medicare program provides health insurance for people aged 65 and over and those who are
disabled or have permanent kidney disease. The Social Security Act (the Act) states: “[b]efore
an individual applies for benefits under part A or enrolls under part B, the Administrator [CMS]
shall mail the individual a questionnaire to obtain information on whether the individual is
covered under a primary plan and the nature of the coverage provided under the plan, including
the name, address, and identifying number of the plan” (the Act, §1862(b)(5)(D)).” 1

The Amendments required that CMS contract with an entity within 60 days to distribute the
questionnaire (the Amendments, § 151(a)(1)(B)). To implement this section of the law, CMS
contracted with Douglas to develop the questionnaire, collect the applicant information, and
provide it to CMS.

In 1999, CMS moved the questionnaire process to a larger Coordination of Benefits contract
with Group Health. Douglas continued to process the questionnaires as a subcontractor for
Group Health under contract GHI-DCCS-500-00-0001/COB (the contract). During 2011, CMS
moved the paper questionnaire process to an electronic format, and on May 20, 2011, Group
Health terminated the contract with Douglas.

HOW WE CONDUCTED THIS REVIEW

We reviewed costs of $11,512,458 that Douglas claimed from January 1, 2008, through May 20,
2011 (audit period). We reviewed costs from the general ledger, expense reports, payroll
journals, and personnel records and reconciled them to the invoices Douglas submitted to
determine whether the costs claimed were accurate, allowable and reasonable based on Federal
requirements and the terms of the contract.


1
 The Social Security Amendments of 1994, P.L. No. 103-432, enacted October 31, 1994, (the Amendments)
established this requirement.

Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                           1
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                               FINDINGS

Douglas generally claimed costs under the contract that that were accurate, allowable and
reasonable. Of the $11,512,458 in costs that we reviewed, $11,196,818 was allowable under the
terms of the contract and Federal regulations. The remaining $315,640 was unallowable.

                       Unallowable Costs Claimed During the Audit Period

                                                                 Unallowable
                                      Costs
                                                                  Amount
                        Fringe Benefits                            $233,272
                        Unsupported Costs                           $48,454
                        Employee Morale and Welfare                 $33,914
                           Total Unallowable Costs                 $315,640

See Appendix B for a schedule of costs claimed.

Douglas claimed these unallowable costs because it did not have adequate internal controls in
place to ensure that only allowable costs were charged to the contract.

UNALLOWABLE COSTS CLAIMED

Unallowable Fringe Benefit Costs

Federal standards do not define a full-time or part-time employee, but instead allow the employer
to determine the number of hours an employee must work to be considered a full-time employee.
However, employers may not act indirectly in a discriminatory fashion.

The Douglas Employee Handbook states, “Full-time employees are those personnel who are not
in a temporary status and work a minimum of 40 hours per week on an ongoing basis.” It also
states “Part-time employees are not eligible for company benefits except for those specifically
stated in writing between Douglas and the employee.” Douglas officials informed us that no
employee they identified as part-time had received any company paid benefits.

Douglas claimed $233,272 in unallowable fringe benefit costs for employees who did not meet its
requirement for full-time employment. To calculate the average hours worked in a week for each
employee, we reviewed timesheets and included all paid time off as hours worked. We
considered any employee who worked less than 39 hours per week a part-time employee. For

Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                     2
example, one employee worked an average of 24.5 hours per week in 2009 and received $1,641
in paid time off and $1,106 in holiday pay.

We found that 38 employees averaged less than 39 hours per week on an ongoing basis during at
least one year in the audit period. The table below summarizes the number of Douglas
employees who averaged less than 39 hours per week on an ongoing basis during each year of
our audit period.

                                  Table: Part-Time Hours Worked

        Average Hours           Number of         Number of         Number of   Number of
           Worked               Employees         Employees         Employees   Employees
          Per Week               CY 2008           CY 2009           CY 2010     CY 2011
           35 to 39                11                 9                12           8
           25 to 35                 5                 3                 5           3
         less than 25               8                 5                 8           6
            Total                  24                17                25          17

Douglas did not follow its policy for fringe benefits. Rather, Douglas officials said that they
considered most employees full-time and included them in the fringe benefit calculations.

Unsupported Automobile and Telephone Costs

The Federal Acquisition Regulation (FAR) requires that, “A contractor is responsible for
accounting for costs appropriately and for maintaining records, including supporting
documentation, adequate to demonstrate that costs claimed have been incurred, are allocable to
the contract, and comply with applicable cost principles in this subpart and agency supplements.
The contracting officer may disallow all or part of a claimed cost that is inadequately supported”
(FAR § 31.201-2(d)).

The FAR also states that the “portion of the cost of company-furnished automobiles that relates to
personal use by employees (including transportation to and from work) is unallowable regardless of
whether the cost is reported as taxable income to the employees” (FAR § 31.205-6(m)(2)).

Douglas claimed $48,454 of unsupported costs as follow:

    •   Automobile-related costs of $45,977, including $34,633 for depreciation and $11,344 for
        general automobile costs, such as insurance, repair, and towing. Douglas provided
        company vehicles to employees, but did not provide documentation to distinguish
        between business and personal use.

    •   Costs of $2,477 for telephone service. Douglas used company accounts and funds to pay
        the telephone costs but did not provide documentation to distinguish between business
        and personal use.



Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                        3
Unallowable Employee Morale and Welfare Costs

The FAR states that costs are allowable only when the cost complies with all of the following
requirements: “(1) Reasonableness, (2) Allocability, (3) Standards promulgated by the CAS
[Cost Accounting Standards] Board, if applicable, otherwise, generally accepted accounting
principles and practices appropriate to the circumstances, (4) Terms of the contract, and (5) Any
limitations set forth in this subpart” (FAR Part 31.201-2(a)).

In addition, the FAR states that the reasonableness of a cost depends upon a variety of
considerations, including whether the type of cost is generally recognized as ordinary and
necessary for the conduct of the contractor’s business or the contract performance (FAR
§ 31.201-3). Although the FAR allows certain costs for employee morale and welfare, costs for
gifts to employees are unallowable (FAR § 31.205-13(5)(b)). Costs for amusement, diversion
and social activities are also unallowable (FAR § 31.205-14).

Douglas claimed $33,914 in unallowable Employee Morale and Welfare costs. These
unallowable costs included, but were not limited to, $10,946 for the purchase of a television and
$1,868 for Thanksgiving meals. Douglas failed to properly account for costs appropriately and
did not demonstrate that costs claimed were reasonable or allocable to the contract.

INADEQUATE INTERNAL CONTROLS

Douglas did not have adequate internal controls to ensure that it properly followed its policy for
classifying full-time employees in providing fringe benefits. Furthermore, Douglas did not
maintain adequate supporting documentation and did not have adequate procedures to ensure that
the costs claimed under the contract were allowable based on the terms of the contract and
applicable Federal regulations.

                                       RECOMMENDATIONS

We recommend that Douglas:

    •   refund $315,640 to the Federal Government and

    •   follow its policies and procedures to comply with Federal regulations.

DOUGLAS CONSULTING & COMPUTER SERVICES, INC., COMMENTS

In written comments on our draft report, Douglas concurred with our finding that it claimed
$48,454 in unsupported automobile and telephone costs and listed corrective action it plans to
take to address it. Douglas did not concur with our findings that it claimed unallowable fringe
benefit costs of $233,272 and employee morale and welfare costs of $33,914. Douglas stated
that the audit based its fringe benefit finding on one line in its Employee Handbook taken out of
context. Douglas described its unwritten policy for providing fringe benefits to employees hired
as full time regardless of the hours worked, as long as the employees continued to work in that
position. Douglas stated that the employee morale and welfare costs were for television and

Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                       4
cable service for the break room, modest group meals, and ordinary and necessary expenses that
were allowable to maintain satisfactory relations with its employees and to improve working
conditions, employee morale, and employee performance.

In addition, Douglas did not concur that it lacked adequate internal controls to prevent
unallowable costs from being charged to the contract. Douglas stated that, because the audit
report concluded that the majority of the costs claimed were allowable, its internal controls were
adequate.

Douglas’ comments are included as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Douglas’ comments, we maintain that our findings and recommendations are
valid. Douglas had written policies in its Employee Handbook that established eligibility for
fringe benefits. The unwritten policy that Douglas described did not conform to these written
policies and carried a high risk of indirect discrimination. Employee morale and welfare costs
must be reasonable; that is, ordinary and necessary for the contractor’s performance. However,
Douglas claimed, among other things, $10,946 for one television and $1,868 for Thanksgiving
meals. These costs were neither reasonable nor necessary. We have modified our report to more
clearly reflect the disallowed costs in our findings.

We further maintain that Douglas’ internal controls were inadequate to prevent Douglas from
claiming some unallowable costs.




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                        5
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY
SCOPE

Our review identified costs totaling $11,512,458 submitted by Douglas for January 1, 2008,
through May 20, 2011. We did not audit termination costs incurred after May 20, 2011.

We conducted fieldwork at the CMS Central Office in Baltimore, Maryland, and at the Douglas
offices in Columbia, Maryland.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal statutes and regulations;

    •   reviewed the contract;

    •   reviewed Douglas’ policies and procedures,

    •   held discussions with Douglas officials to gain an understanding of their work and costs
        related to the contract;

    •   obtained invoices and supporting schedules submitted by Douglas for the audit period;

    •   reviewed costs from general ledger listings, expense reports, payroll journals, and
        personnel records and reconciled them to the invoices and supporting schedules;

    •   determined whether the costs claimed were accurate, allowable and reasonable based on
        Federal requirements, contract terms and Douglas’ internal policies; and

    •   discussed our findings with officials from CMS and Douglas.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                      6
                       APPENDIX B: SCHEDULE OF COSTS CLAIMED



                 Element of              Costs            Unallowable             Allowable
                    Cost                Claimed             Costs                   Costs
           Wages & Fringe
           Benefits                  $10,259,760              $233,272          $10,026,488


           Supplies                        27,446                      0            27,446


           Transportation                  62,134                45,977             16,157


           Travel                           4,536                      0              4,536


           Phone                          255,349                 2,477            252,872


           Maintenance                    141,422                      0           141,422


           Other                          111,389                33,914             77,475
           Computer Hardware
           & Software                     650,422                      0           650,422


           Total                     $11,512,458              $315,640          $11,196,818




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                 7
                  APPENDIX C: DOUGLAS CONSULTING & COMPUTER
                            SERVICES, INC., COMMENTS

                  DOUGLAS Consulting & Computer Services, Inc.
                         lnnovative Concepts for the Right Solution

October 8, 2013

Mr. Stephen V irbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

Re:    Report No. A-03-12-03302; Response to Draft Report Entitled Review of Douglas Consulting
and Computer Services, Inc., Claimed Costs for Calendar Years 2008 through 2011

Dear Mr. Virbitsky:

Thank you for the opportunity to provide these comments on the above-referenced draft audit report.
Except as indicated below, Douglas Consulting and Computer Services, Inc. ("DCCS") does not
concur with the draft report's assertion that DCCS claimed unallowable costs of $316,000 from
January 1, 2008 through May 20, 2011. In addition, DCCS does not concur that it lacked sufficient
controls to ensure that only allowable costs were charged to its subcontract with Group Health
Incorporated ("GHI"), Contract No. GHI-DCCS-500-00-0001/COB ("the contract"). Our responses to
the four findings in the draft audit report are set forth below.

Fringe Benefit Costs

The draft audit report questions fringe benefit costs totaling $233,272 based on the auditors' opinion
that 38 of DCCS's full-time employees did not meet DCCS's requirement for full-time employment
and should therefore have been treated as part-time employees who are not entitled to company-paid
benefits. Federal Acquisition Regulation ("FAR") 31.205-6(m)(1) expressly states that "the costs of
fringe benefits are allowable to the extent that they are reasonable and are required by law, employer-
employee agreement, or an established policy of the contractor." As the draft audit report
acknowledges, Federal standards do not define full-time or part-time employee, but instead allow the
employer to determine the number of hours an employee must work to be considered a full-time
employee. The draft audit report focused exclusively on a single sentence, taken out of context, from
the Douglas Employee Handbook, and ignored DCCS's established policy of providing fringe benefits
to all employees hired into full-time positions. DCCS has never applied the language in its employee
handbook for either defining full-time employees or determining who is eligible to receive benefits.
Instead, it has been DCCS's established and consistently followed policy and practice to hire
employees into either full-time positions or part-time positions and maintain that categorization for as
long as the

                   5221 Scenic Drive, Perry Hall, MD 21128 I Voice 410-905-0924 I Fax 410-529-1273
                            Website: www.douglaccs.com I Email: dccs@douglasccs.com

Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                          8
Mr. Stephen Virbitsky
<October 8, 2013>
Page 2

employee continues to work in the same position. It has also been DCCS’s established and consistently
followed policy and practice to inform new employees who are hired into full-time positions that, if they
are retained as employees after the probationary period ends, they are expected to report to work on time
each workday (Monday through Friday, except Federal holidays) and that they are expected to work eight
hours per day, five days each week, unless authorized by their manager to be absent from their
workstation. Any employee hired on those terms is considered a “full-time” employee, regardless of
whether there is sufficient work available for the employee to work 40 hours each and every week.
Further, it is DCCS’s established and consistently followed policy and practice to provide fringe benefits
to employees hired into such full-time positions. This policy and practice has been in effect since 1992,
when DCCS first began hiring employees. The practice is not applied in a discriminatory fashion; it
applies equally to all work performed by DCCS.

DCCS’s long-standing, established and consistently followed policy and practice, not the sentence taken
out of context from the employee handbook, is determinative. See, e.g., Boeing Aerospace Operations,
Inc., ASBCA No. 46274, 94-2 BCA § 26,802 (holding that a company policy need not be in writing, and
can be established through consistent application over a long period of time). Thus, contrary to the draft
audit report’s assertion, the questioned fringe benefit costs are expressly allowable under FAR 31.205-
6(m)(1).

Unsupported Costs

The draft audit report questions automobile-related costs of $45,977 and telephone service costs of $2,477
based on inadequate supporting documentation. Specifically, the draft audit report alleges that DCCS
failed to provide documentation to distinguish between business and personal use of the company-
furnished automobiles and company-paid telephone service. Inasmuch as DCCS did not maintain
adequate records to substantiate the business purpose of certain expenses related to the company-owned
vehicles ($45,977) and certain telephone charges ($2,477), DCCS concurs with the proposed
disallowances.

In terms of corrective action, DCCS will establish and maintain vehicle logs documenting the business
purpose of the vehicle expenses. These logs will identify the vehicle, mileage to/from destination,
purpose, etc. to establish the business purpose. Alternatively, the costs will not be claimed for re-
imbursement under any Government contract. Out of the hundreds of thousands of telephone expenses
incurred by DCCS, our failure to document the business purpose of this small amount is not considered to
be a major internal control deficiency. However, we will stress to the employees the importance of
documenting this and all other expenses.




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                                9
Mr. Stephen Virbitsky
<October 8, 2013>
Page 3

Employee Morale and Welfare

The draft audit report questions employee morale and welfare costs of $33,914. The draft audit report
cites three reasons for questioning the costs, but does not specify which costs were questioned for which
reason. Therefore, we will respond in general to all three reasons.

First, the draft audit report states that although the FAR allows certain costs for employee morale and
welfare, costs for gifts are unallowable under FAR 31.205-13(b). Very few, if any, of the costs itemized
on the lists provided by the auditors can properly be characterized as “gifts.” A gift is something given
gratuitously without any expectation of receiving a benefit in exchange. However, the vast majority of the
questioned costs are for things such as group meals, coffee and water service for the office, cleaning
supplies for the office, and a television and cable TV for the employee break room. All of these costs are
expressly allowed under FAR 31.205-21(a) because they were incurred to maintain satisfactory relations
between DCCS and its employees. In addition, the group meals, coffee and water service, and employee
break room expenses are expressly allowed under FAR 31.205-13(a) because the costs were incurred on
activities designed to improve working conditions, employer-employee relations, employee morale, and
employee performance. Indeed FAR 31.205-13(a)(5) specifically cites, as an example of allowable
employee morale and welfare costs, food services for the contractor’s employees, including canteens,
vending machines, living accommodations and similar types of services.

Second, the draft audit report asserts that DCCS did not demonstrate that the costs are reasonable. As the
draft audit report correctly observes, FAR 31.201-3(b) states that the reasonableness of a cost depends
upon a variety of considerations, including whether it is the type of cost generally recognized as ordinary
and necessary for the conduct of the contractor’s business or the contract performance. Modest group
meals for significant occasions, office coffee and water service, and supplying an employee break room
are ordinary and necessary expenses. Indeed, professional service companies commonly provide such
amenities to their staff for precisely the reasons noted in FAR 31.205-21(a) and FAR 31.205-13(a), i.e., to
maintain satisfactory relations between the company and its employees, and to improve working
conditions, employer-employee relations, employee morale, and employee performance.

Third, the draft audit report asserts that DCCS did not demonstrate that the costs are allocable to the
contract. These costs are allocable to the contract because they were incurred for the benefit of the DCCS
employees working on the contract. The costs are therefore allocable to the contract under FAR 31.201-
4(a).




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                            10
Mr. Stephen Virbitsky
<October 8, 2013>
Page 4

Internal Controls

Finally, the draft audit report asserts that DCCS did not (a) have adequate internal controls to ensure that
it properly followed its policy for classifying full-time employees, (b) maintain adequate supporting
documentation, and (c) have adequate procedures to ensure that the costs claimed under the contract were
allowable. Because the draft audit report is incorrect in its contentions that the full-time employees are
ineligible for fringe benefits, and that the allowable employee morale and welfare costs are
unallowable, it follows that the draft audit report is also wrong in asserting that DCCS lacks adequate
internal controls. However, even assuming for the sake of argument that $315,640 of the claimed
costs under the contract were unallowable (which they were not), it would still represent less than 2¾
percent of the costs claimed. Internal controls need not be perfect, they need only be adequate. The
draft audit report itself concedes that DCCS "generally claimed costs under the contract that were
accurate, allowable and reasonable," and of the $11,512,458 in costs claimed, the auditors determined
that $11,196,818 was allowable under the terms of the contract and Federal regulations. Accordingly,
even if the draft audit report were correct in its first three allegations (and it is not for the reasons
discussed above), there would still be no basis for a finding that DCCS lacks adequate internal
controls.

Although we concurred with the proposed disallowed costs for the automobiles and certain minor
telephone expenses, we do not concur that any monies are now due and owing to CMS, if ever. The
allowable contract costs are yet to be finalized with CMS and, we believe that once they are finalized,
the CMS will find that DCCS has significantly under-billed their allowable contract costs.




Sincerely,

/James M. Douglas, Jr./

President and Chief Executive Officer




Douglas Consulting and Computer Services, Inc., Claimed Costs (A-03-12-03302)                            11
